         U.S. Department of Energy
         Office of Inspector General
         Office of Audits and Inspections




Audit Report
The Department of Energy's Energy
Conservation Efforts




OAS-L-11-02                          February 2011
                                   Department of Energy
                                      Washington, DC 20585

                                          February 9, 2011


MEMORANDUM FOR THE ASSISTANT SECRETARY FOR ENERGY EFFICIENCY
                 AND RENEWABLE ENERGY



FROM:                       George W. Collard
                            Assistant Inspector General for Audits

SUBJECT:                    INFORMATION: Audit Report on "The Department of Energy's
                            Energy Conservation Efforts"
                            Audit Report Number: OAS-L-11-02

BACKGROUND

The Energy Independence and Security Act of 2007 (EISA) requires Federal agencies to apply
energy efficiency measures to Federal buildings so that by Fiscal Year (FY) 2015, each agency's
energy intensity is reduced by 30 percent from the baseline established in FY 2003. Energy
intensity is calculated as the energy consumption in British Thermal Units (BTUs) per gross
square foot of the Federal buildings. The Department of Energy's (Department) FY 2003 energy
consumption baseline for its sites around the Nation was 23 trillion BTUs, supplied by energy
acquired at an annual cost of around $229 million. If the Department achieves the 30 percent
energy conservation requirement in FY 2015, its energy consumption would be reduced by
nearly 7 trillion BTUs, resulting in a savings of nearly $80 million annually. This equates to the
power necessary to operate nearly 180,000 housing units.

The Department's approach to meeting its EISA requirement has been to rely, to the maximum
extent possible, on its individual sites obtaining third-party financing agreements, known as
Energy Savings Performance Contracts (ESPCs), to fund energy conservation projects. An
ESPC is a financing mechanism in which a private sector energy services company develops and
installs multiple energy efficiency projects in exchange for a share of the future savings over the
contract period.

The Department has emphasized the need for its actions to set the example for energy
conservation in the Federal Government, the Nation's largest energy consumer. Because of the
Department's commitment to reduce energy consumption and greenhouse gas emissions, we
initiated this audit to determine whether the Department had developed an effective approach for
meeting EISA's energy intensity reduction requirement.

CONCLUSIONS AND OBSERVATIONS

The Department's current approach was not sufficient to permit it to achieve the EISA imposed
energy conservation requirement. The Department has achieved a 16 percent energy intensity
reduction; however, under its current approach, the Department is unlikely to meet the required
30 percent reduction by FY 2015. In fact, at the time of our review, Department sites had
cumulatively planned enough conservation measures projected to reduce the Department's
energy intensity by only 22 percent by FY 2015. Further, according to their FY 2010 plans for
reducing energy consumption, only half of the Department's sites (18 of 35) reported they would
be able to meet their individual 30 percent reduction requirement. Six sites reported they were at
risk of not realizing a 30 percent reduction by 2015, and 11 did not indicate whether they would
meet the requirement.

We found that not all of the Department's sites could successfully manage or pursue ESPCs to
meet the energy conservation requirement. For example, as we noted in our report on
Management of Energy Savings Performance Contract Delivery Orders at the Department of
Energy, (DOE/OIG-0822, September 2009), the Department had not always adequately managed
these financing mechanisms properly, resulting in unnecessary expenditures and the failure of
some projects to achieve expected efficiencies. In addition, we found that several sites,
including Lawrence Livermore National Laboratory (LLNL) and SLAC National Accelerator
Laboratory (SLAC), had not pursued or implemented ESPCs because they were determined to be
not economically viable. For example, LLNL had awarded an ESPC in July 2008; but, because
of challenges in creating a viable project, was unsuccessful with the development of a second
ESPC in 2009. In the absence of ESPCs, Department sites had difficulty securing appropriated
funds to support their energy conservation efforts. Officials at both SLAC and Los Alamos
National Laboratory told us that they had been unable to obtain funds to implement energy
conservation measures due to competing mission priorities.

The Department's Federal Energy Management Program (FEMP), which is responsible for
supporting the Federal Government's effort to implement cost-effective energy management and
investment practices, recognized that the Department's current approach to energy conservation
is unlikely to achieve the required reductions in energy consumption. Specifically, FEMP
reported in FY 2010 that the Department's reliance on ESPCs would not be sufficient to achieve
a 30 percent reduction in energy intensity. In fact, FEMP stated that without direct funding, the
Department will fail to meet the energy conservation requirement.

While we recognize that funding for energy conservation projects must compete with mission
needs for increasingly scarce Federal resources, we noted in the past the Department lacked a
systematic approach to funding energy conservation measures. In our previous report on The
Department of Energy's Opportunity for Energy Savings Through Improved Management of
Facility Lighting (DOE/IG-0835, June 2010), we found that (i) the Department had not planned
for energy efficiency improvements in the budgeting process; and, (ii) the savings accruing from
energy conservation projects had not been tracked or reinvested as required by the Department.
In response to that report, management indicated that it generally concurred with our
recommendations to improve the budgeting process. Specifically, Department management
stated the Department's FY 2012 budget guidance requested that Department programs submit
funding plans for lowering their greenhouse emissions and improving energy efficiency.

To its credit, the National Nuclear Security Administration (NNSA) had requested $6.6 million
for FY 2011 for an Energy Modernization and Investment Program to support energy
conservation projects across the nuclear security enterprise.

                                                  2
                          Strategic Sustainability Performance Plan

In September 2010, the Department established a Strategic Sustainability Performance Plan
(Sustainability Plan) as required by Executive Order 13514 on Federal Leadership in
Environmental, Energy, and Economic Performance. This order called on Federal agencies to
improve their energy efficiency and achieve target reductions in greenhouse gas emissions. The
strategies described in the Sustainability Plan, if fully implemented, should advance the
resolution of the issues identified in this and our previous reports and help the Department meet
the EISA mandate. Specifically, under the Sustainability Plan, the Department plans to establish
a process to prioritize projects that most cost‐effectively meet the Sustainability Plan's energy
and environmental goals, while generating the greatest cost savings for the Department as it
executes its mission.

The Department's Under Secretaries are responsible for meeting the 30 percent energy reduction
requirement, including management of planning, budgeting, development, implementation, and
oversight. In October 2010, the Department established a Sustainability Performance Office to
coordinate corporate oversight, perform data collection, evaluate performance, facilitate
information management, and report progress towards the sustainability requirements.

When we discussed our conclusions with Department officials, they acknowledged that
improvements could be made to the process, but pointed out that the Department had made
significant progress in addressing the energy conservation goals. We acknowledge the progress
that the Department has made to date; however, we remain concerned with the Department's
ability to meet the FY 2015 goal based on the current strategy. Because the recently released
Sustainability Plan could, if fully implemented, address the issues identified in our report, we
have not made formal recommendations regarding specific conservation methods or investment
controls. In our judgment, implementation of the Plan will require close monitoring by the
Department's senior officials. Given the Department's mission and its stature as a leader in the
Federal government's energy conservation effort, such senior level attention appears to be
warranted. Since no formal recommendations are being made in this report, a formal response is
not required. We appreciate the cooperation of your staff and the various Department elements
that provided information or assistance.

Attachment

cc: Deputy Secretary
    Acting Under Secretary of Energy
    Under Secretary for Science
    Under Secretary for Nuclear Security/Administrator, National Nuclear Security
         Administration
    Chief of Staff
    Director, Office of Management
    Chief Financial Officer




                                                 3
                                                                                    Attachment

                               SCOPE AND METHODOLOGY

The audit was performed from March 2010 through December 2010, at the Department of
Energy's (Department) Headquarters in Washington, DC and Germantown, Maryland; Savannah
River Site in Aiken, South Carolina; Fermi National Accelerator Laboratory in Batavia, Illinois;
Lawrence Livermore National Laboratory in Livermore, California; SLAC National Accelerator
Laboratory in Menlo Park, California; and Los Alamos National Laboratory in Los Alamos, New
Mexico. The scope of the audit was limited to the Department's efforts to conserve energy at its
facilities.

To accomplish the audit objective, we:

   • Reviewed the Department's energy conservation strategy and site Executable Plans;

   • Interviewed key personnel at Department Headquarters and each of the sites;

   • Analyzed the funding options for energy conservation projects;

   • Calculated the Department's energy conservation reduction from the projects listed in the
     site Executable Plans;

   • Analyzed the effectiveness of the Department's strategy to implement the energy
     conservation projects; and

   • Calculated the potential cost savings from the Department's energy conservation
     reduction.

We conducted this performance audit in accordance with generally accepted Government
auditing standards. Those Standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objective. We believe the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objective. The audit included tests of controls
and compliance with laws and regulations to the extent necessary to satisfy the audit objective.
Because our review was limited, it would not necessarily have disclosed all internal control
deficiencies that may have existed at the time of our audit. Also, we assessed the Department's
compliance with the Government Performance and Results Act of 1993 and found the
Department had not established performance measures related to achieving the energy
conservation requirement. Finally, we relied on a limited amount of computerized data to
accomplish the audit objective and found the data reliable. Specifically, we relied on computer
data from the Department's Energy Management System to determine the baseline for calculating
the Department's energy conservation reduction. To determine the data's reliability, we reviewed
selected system controls used to enter, assess, and edit the data.

Management waived the exit conference.




                                                4
                                                                   IG Report No. OAS-11-L-02

                              CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers'
requirements, and, therefore, ask that you consider sharing your thoughts with us. On the
back of this form, you may suggest improvements to enhance the effectiveness of future
reports. Please include answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding this
   report?

2. What additional information related to findings and recommendations could have been
   included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall
   message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues
   discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should we
   have any questions about your comments.


Name                                          Date

Telephone                                     Organization


When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                              Office of Inspector General (IG-1)
                                    Department of Energy
                                   Washington, DC 20585

                                 ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Felicia Jones (202) 253-2162.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and
cost effective as possible. Therefore, this report will be available electronically through the Internet at
                                         the following address:

                  U.S. Department of Energy Office of Inspector General Home Page
                                       http://www.ig.doe.gov

     Your comments would be appreciated and can be provided on the Customer Response Form
                                    attached to the report.
